Case: 19-30603

Document: 00515825869

Date Filed: 04/19/2021

Page: 1

for tlje jfittt) Circuit

United States Court of Appeals
Fifth Circuit

FILED
No. 19-30603

March 8, 2021
Lyle W. Cayce
Clerk

Elliot Joseph,
Petitioner—Appellant,
versus
Darrel Vannoy, Warden, Louisiana State Penitentiary,
Respondent—Appellee.

Appeal from the United States District Court
for the Middle District of Louisiana
USDC No. 3:16-CV-311

ORDER:
Elliot Joseph, Louisiana prisoner # 328928, moves for a certificate of
appealability (COA) to appeal the district court’s dismissal of his pro se 2£
U.S.C. § 2254 application as time barred. In his § 2254 application, Joseph
challenged his 2005 conviction for first-degree murder and the resulting
sentence of life imprisonment on the grounds that: he had been interrogated
without proper warnings under Miranda v. Arizona, 384 U.S. 436 (1966), and
illegally-obtained tapes were presented at his trial; the trial court deprived
him of his right to self-representation, the counsel of his choice, or qualified
counsel in a capital case; his counsel rendered ineffective assistance in several
respects; the trial court failed to order the sequestration of the jury; and the

Certified as a true copy and issued
as the mandate on Apr 19, 2021
Attest:

UJ, CtUrfC*
Clerk, U.S. U&urt of Appeals, Fifth Circuit

Case: 19-30603

Document: 00515825869

Page: 2

Date Filed: 04/19/2021

No. 19-30603

trial court failed to allow the jury members time to deliberate by ordering
them to deliver a verdict or be sequestered. Joseph seeks a COA to appeal
these claims, and he moves for leave to proceed in forma pauperis (IFP) on
appeal.
To obtain a COA, a prisoner must make “a substantial showing of the
denial of a constitutional right.” 7.8 TLS.C. $ 2251(c)(2). The COA
applicant must demonstrate “that reasonable jurists could debate whether
(or, for that matter, agree that) the petition should have been resolved in a
different manner or that the issues presented were adequate to deserve
encouragement to proceed further. ” Slack v. McDaniel, 529 U.S. 473T 484
(2000) (internal quotation marks and citation omitted). Where, as here, the
district court has denied relief based on procedural grounds, a COA should
be granted “when the prisoner shows, at least, that jurists of reason would
find it debatable whether the petition states a valid claim of the denial of a
constitutional right and that jurists of reason would find it debatable whether
the district court was correct in its procedural ruling. ” Id.
Joseph does not assert, and has thereby abandoned, any challenge to
the district court’s determination that his § 2254 application was untimely
and that equitable tolling of the limitations period was not warranted. See
Hughes v. Johnson, 191 F.3d 607. 613 (5th Cir. 1999); Yohey v. Collins, 2&5
F.2d 222. 224-25 (5th Cir. 1993). Accordingly, Joseph has failed to show that
reasonable jurists would find the district court’s dismissal of his § 2254
application as time barred to be debatable or incorrect. See Slack, 529 U.S. at
484. Joseph’s motions for a COA and for leave to proceed IFP on appeal are
DENIED.
/s/Carl E. Stewart
Carl E. Stewart
United States Circuit Judge

2

cument: 00515816550

Case: 19-30603

te Filed: 04/09/2021

Page: 1

for tfje Jftftf) Circuit
No. 19-30603

Elliot Joseph
Petitioner—Appellant,
versus
Darrel Vannoy, Warden, Louisiana State Penitentiary,
Respondent—Appellee.

Appeal from the United States District Court
for the Middle District of Louisiana
USDC No. 3:16-CV-311

Before Stewart, Graves, and Higginson, Circuit Judges.
Per Curiam:
A member of this panel previously DENIED appellant’s motion for
a certificate of appealability and to proceed in forma pauperis. The panel has
considered Appellant’s motion for reconsideration.
IT IS ORDERED that the motion is DENIED.

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF LOUISIANA

CIVIL ACTION

ELLIOT JOSEPH
VERSUS

NO.: 16-311-BAJ-RLB*

DANIEL VANNOY
FINAL JUDGMENT

Considering the Ruling and Order dismissing the Petition for Writ of Habeas
Corpus with prejudice, and in accordance with Federal Rule of Civil Procedure 58,
IT IS ORDERED AND ADJUDGED that this action is DISMISSED with
prejudice.

Baton Rouge, Louisiana, this

A
day of July, 2019.

JUDGE BRIAN AJ^CKSON
UNITED STATES mSTRICT COURT
MIDDLE DISTRICT OF LOUISIANA

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF LOUISIANA

CIVIL ACTION

ELLIOT JOSEPH
VERSUS

NO.: 16-311-BAJ-RLB

DANIEL VANNOY
RULING AND ORDER

Elliot Joseph, proceeding pro se, petitions for a writ of habeas corpus under 28
U.S.C. § 2254. (Doc. 1). The State of Louisiana counters that the petition is untimely
under the one-year limitation period prescribed by the Antiterrorism and Effective
Death Penalty Act of 1996 (AEDPA), PUB. L. No. 104-132, 110 STAT. 1214. The Court
agrees and dismisses the petition.
I.

BACKGROUND
Joseph was convicted of the first-degree murder of his three-year-old son. (Doc.

1 at p. 1). He received a sentence of life without parole. (Id.).
A.

Direct Appeal

Joseph timely appealed his conviction and sentence to the Louisiana First
Circuit Court of Appeal. (Id. at p. 2). That court affirmed. See State v. Joseph, No.
2005-KA-2169 (La. Ct. App. 1st Cir. 12/28/06) (unpublished). Joseph timely applied
for a writ from the Supreme Court of Louisiana. See State u. Joseph, 2007-0273 (La.
10/5/07); 964 So. 2d 384 (memorandum opinion). After that court denied his writ
1

application, he applied for reconsideration. See State v. Joseph, 2007-0273 (La.
1/25/08); 973 So. 2d 745 (memorandum opinion). The Supreme Court of Louisiana
denied reconsideration in a January 25, 2008 order. Id. Joseph did not petition the
United States Supreme Court for a writ of certiorari. (Doc. 1 at p. 2). So his judgment
of conviction became “final” on April 24, 2008—90 days after January 25, 2008. See
Ott V. Johnson, 192 F.3d 510, 513 (5th Cir. 1999) (holding that 28 U.S.C.
§ 2244(d)(1)(A) “takes into account the time for filing a certiorari petition in
determining the finality of a conviction on direct review”).
B.

Post-Conviction Review

Joseph applied to the state trial court for post-conviction relief1 on December
2, 2008. (Doc. 1-2 at p. 4). That court denied the application on April 1, 2014. (Doc. 13 at p. 25). Joseph next applied for a writ from the Louisiana First Circuit Court of
Appeal. (Id. at p. 50). That court denied the application on August 12, 2014 because
it did not comply with filing requirements. (Id,.). Joseph applied for a writ from the
Supreme Court of Louisiana, which denied the application as untimely on December
7, 2015. See Joseph v. State, 2015-KH-0845 (La. 12/7/15).
Finally, Joseph filed his § 2254 petition on May 5, 2016. (Doc. 1).

1 The Court assumes, without deciding, that Joseph’s December 2, 2008 “letter application
qualifies as an application for post-conviction relief.

2

II.

DISCUSSION
AEDPA requires a § 2254 petitioner to apply for a writ of habeas corpus within

one year of the date “on which the judgment became final by the conclusion of direct
review or the expiration of the time for seeking such review[.]” 28 U.S.C.
§ 2244(d)(1)(A).2 To calculate when the one-year limitation period has run, the Court
“aggregate[s] the time between (i) the date the petitioner’s conviction became ‘final’
and the date the petitioner tiled his state habeas application; and (ii) the date the
state habeas process concluded and the date the petitioner filed his federal habeas
petition.” Sutton v. Cain, 722 F.3d 312, 316 n.6 (5th Cir. 2013) (per curiam).
A.

Timeliness

Joseph’s judgment of conviction became final on April 24, 2008. See Ott, 192
F.3d at 513. He filed his state post-conviction application 222 days later, on December
2, 2008. (Doc. 1-2 at p.4). The one-year limitation period was tolled during the
pendency of “properly filed” state post-conviction proceedings.3 See 28 U.S.C.
§ 2244(d)(2). Those proceedings concluded on December 7, 2015, and the one-year
limitation period began to run again.4 Id. Joseph filed his § 22o4 petition 150 days
later, on May 5, 2016. (Doc. 1). That was too late: by that time, 372 un-tolled days

2 Joseph does not argue that the limitation period should be calculated based on any of the
circumstances described in 28 U.S.C. § 2244(d)(l)(B)-(D).
3 'j'he Court assumes, without deciding, that Josephs state post-conviction application
remained “pending” and “properly filed from December 2, 2008 to Decembei 7, 2015.
'i Joseph appears to argue that the one-year limitation period was tolled until Maich 24, 2016,
when the Supreme Court of Louisiana denied an application for a writ of mandamus. See State ex rel.
Joseph v. Stale, 2015-1012 (La. 3/24/16); 190 So. 3d 1189 (memorandum opinion). He is mistaken. His
mandamus petition did not “seek review” of his judgment of conviction; accordingly, it did not toll the
one-year limitation period under 28 U.S.C. § 2244(d)(2). See Moore u. Cain, 298 F.3d 361, 36 / (5th Cii.
2002).

3

had elapsed. Because Joseph failed to file his petition within 365 un-tolled days of
April 24, 2008, his petition is untimely. See 28 U.S.C. § 2244(d)(1)(A).
B.

Equitable Tolling

Joseph requests that the Court equitably toll AEDPA’s one-year limitation
period. (Doc. 8). He asserts that the State of Louisiana does not uniformly apply “rules
and procedures” and that, as a pro se litigant, he “will never understand the
proceedings.” (Id. at p. 3).
To obtain the benefit of equitable tolling, Joseph must show that “(1) he
pursued habeas relief with 'reasonable diligence,’ and (2) some ‘extraordinary
circumstance’ stood in his way and ‘prevented’, timely filing. Palacios v. Stephens,
723 F.3d 600, 604 (5th Cir. 2013) (quoting Manning v. Epps, 688 F.3d 177, 183 (5th
Cir. 2012)).
“The diligence required for equitable tolling purposes is reasonable diligence,
not maximum feasible diligence.” Holland u. Florida, 560 U.S. 631, 653 (2010).
“Whether diligence is ‘reasonable’ is an ‘equitable, often fact-intensive inquiry’ in
which courts are instructed to avoid ‘mechanical rules’ and instead to ‘draw upon
decisions made in other similar cases for guidance.’” Palacios, 723 F.3d at 605
(quoting Holland, 560 U.S. at 650, 654). “[Petitioners seeking to establish due
diligence must exercise diligence even when they receive inadequate legal
representation.” Manning, 688 F.3d at 185.
Joseph has not shown “reasonable diligence.” He waited 222 days after the
conclusion of direct review to pursue state habeas relief. This lengthy, unexcused

4

delay “weights] heavily” against a finding of reasonable diligence. Palacios, 723 F.3d
at 608. What is more, his ineffective-assistance-of-counsel arguments are “irrelevant
to the tolling decision because a prisoner has no right to counsel during post­
conviction proceedings.” United States, v. Petty, 530 F.3cl 361, 366 (5th Cir. 2008) (per
curiam) (citing United States v. Riggs, 314 F.3d 796, 799 (5th Cir. 2002)). And his
alleged “lack of legal training, ignorance of the law, and unfamiliarity with the legal
process” are insufficient reasons to equitably toll the limitation period. Petty, 530 F.3d
366 (citing Felder v. Johnson, 204 F.3d 168, 171-72 (5th Cir. 2000)).
Because Joseph fails to show “reasonable diligence,” he is not entitled to
equitable tolling. Palacios, 723 F.3d at 604. Without the benefit of equitable tolling,
Joseph’s § 2254 petition is untimely and must be dismissed.

III.

CONCLUSION
Accordingly,
IT IS ORDERED that the Petition for Writ of Habeas Corpus (Doc. 1) is

DENIED and DISMISSED with prejudice. A final judgment shall issue in
accordance with Federal Rule of Civil Procedure 58.

Baton Rouge, Louisiana, this

of July, 2019.

JUDGE BRIAN L JACKSON
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF LOUISIANA

5

Additional material
from this filing is
available in the
Clerk's Office.

